No.
IN THE
SUPREME COURT OF THE UNITED STATES

In re. Amro Elansari,
Petitioner,

ON PETITION FOR A WRIT OF MANDAMUS TO THE
THIRD CIRCUIT COURT OF APPEALS

I - Amro Elansari - swear or declare that on this date, 1, August 2020
, as required by Supreme Court Rule 291 have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT
OF MANDAMUS on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days. The names and addresses of those served are as follows:
Third Circuit - 601 Market Street Philadelphia PA - et al.
JUDGE SWARTZ - 601 Market Street Philadelphia PA - et al.
4. RESPONDENT - JUDGE RESTREPO - 60.1 Market Street Philadelphia PA - et al.
5. RESPONDENT - JUDGE GREENBERG - 601 Market Street Philadelphia PA - et al.
6. RESPONDENT - JUDGE AMBRO - 601 Market Street Philadelphia PA - et al.
7. RESPONDENT - JUDGE KRAUSE - 601 Market Street Philadelphia PA - at al.received

AUG I) a»n
8. RESPONDENT - JUDGE JORDAN - 601 Market Street Philadelphia PA - ptaskjcE of the cler

9. RESPONDENT - THE UNITED STATES - 950 Pennsylvania Avenue, NW, Washington,
D.C. 20530-0001.
10. RESPONDENT - THE COMMONWEALTH OF PENNSYLVANIA -1600 Arch St #300,
Philadelphia, PA -19103
11. RESPONDENT - PENN STATE DICKENSON SCHOOL OF LAW - Lewis Katz,
University Park, PA 16802
12. RESPONDENT - CENTRE COUNTY COURTHOUSE -102 S Allegheny St. Bellefonte,
PA 16823
13. RESPONDENT - STATE COLLEGE POLICE DEPARTMENT - 243 S Allen St. State
College, PA 16801
14. RESPONDENT - CENTRE COUNTY DISTRICT ATTORNEY’S OFFICE -102 S.
Allegheny St. Bellefonte, PA 16823
15. RESPONDENT - CENTRE COUNTY CORRECTIONAL FACILITY - 700 Rishel Hill Rd.
Bellefonte PA 16823
16. RESPONDENT - TOWN OF BLOOMSBURG - 301 E. 2nd St., Bloomsburg, PA 17815
17. RESPONDENT - COLUMBIA COUNTY DISTRICT ATTORNEY’S OFFICE - 35 W. Main
St., Bloomsburg PA 17815
19. RESPONDENT - COLUMBIA COUNTY COURTHOUSE - 35 W. Main Street,
Bloomsburg, PA 17815.
I declare under penalty of perjury that the foregoing is true

3

,20Z^

(Signature)

Li

correct. Executed on

